               U.S. SMALL BUSINESS ADMINISTRATION
                           OFFICE OF INSPECTOR GENERAL
                                Washington, DC 20416



                                                          AUDIT REPORT

                                               Issue Date: June 29, 2004
                                               Number: 4-27



TO:            Mike Pappas
                Associate Administrator for Field Operations

               /s/ original signed [FOIA Ex. 6]
FROM:          Robert G. Seabrooks
                 Assistant Inspector General for Auditing

SUBJECT:       Audit of San Francisco District Office Administrative Activities Related
                to the Silicon Valley Small Business Development Center


      Attached is a copy of the subject report. The report contains one finding and two
recommendations to the Associate Administrator for Field Operations.

        The finding in this report is the conclusion of the Office of Inspector General’s
Auditing Division. The recommendations in this report are subject to review and
implementation of corrective action by your office in accordance with existing Agency
procedures for audit follow-up and resolution. Please provide your management decision
for each recommendation made to you within 30 days from the date of this report using
the attached SBA Forms 1824, Recommendation Action Sheet.

       If you have any questions about the issues contained in the report, please contact
Garry Duncan, Director, Credit Programs Group, at (202) 205-[FOIA Ex. 2].


Attachments
     Audit of San Francisco District Office Administrative Activities
                   Related to the Silicon Valley Small Business
                                   Development Center
                                      San Francisco, CA
                                      Report No. 4-27




The finding in this report is the conclusion of the OIG’s Auditing Division based on testing of SBA
operations. The finding and recommendations are subject to review, management decision, and
corrective action in accordance with existing Agency procedures for follow-up and resolution. This
report may contain proprietary information subject to the provisions of 18 USC 1905 and must not
be released to the public or another agency without permission of the Office of Inspector General.
                Audit of San Francisco District Office Administrative Activities
                          Related to the Silicon Valley Small Business
                                      Development Center




                                                   Table of Contents

                                                                                                                              Page
SUMMARY ........................................................................................................................ i

INTRODUCTION

     A. Background ..............................................................................................................1

     B. Objective and Scope ................................................................................................2



RESULTS OF AUDIT

Finding and Recommendations

     Improvements are Needed in the Operation of the Silicon Valley Small
        Business Development Center .................................................................................3

APPENDICES

     A – Management Response

     B – Report Distribution
                                      SUMMARY

       The Office of Small Business Development Centers’ draft examination reported
program income generated by the Silicon Valley Small Business Development Center
(SVSBDC) was not properly managed. Concerned that improper activities by SBA
personnel may have occurred, the Small Business Administration (SBA) Administrator
requested the Office of Inspector General (OIG) to conduct an audit.

        The audit objective was to determine whether program income was properly
managed and whether selected activities were conducted in compliance with applicable
regulations. The audit concluded that $57,645 of program income for the SVSBDC was
inappropriately collected, commingled with unrelated funds, and disbursed by the
San Jose Service Core of Retired Executives (SCORE) office. In addition, $225,000 was
paid for contractor services that were not acquired in accordance with established
guidelines.

        These conditions occurred because [FOIA Ex. 6] (i) improperly implemented
procedures which resulted in SVSBDC funds being handled contrary to SBDC
Cooperative and Cosponsorship Agreements, and (ii) influenced the sole-source selection
of the SBDC-Technical Assistance Program Director in possible violation of ethics and
employee standards of conduct rules.

       We recommend the Associate Administrator, Office of Field Operations:
       •   Determine what, if any, disciplinary or other administrative actions should be
           taken against [FOIA Ex. 6] for developing a Cosponsorship policy
           memorandum that overrode the SBDC cooperative agreement.

       •   Direct [FOIA Ex. 6] to instruct the San Jose SCORE Chapter to return all
           SVSBDC program income that was generated at the E-Center and is being
           held in the E-Center Special Account to West Valley Community College.

        The Associate Administrator has initiated a thorough review of the issues raised
by the audit and will provide a comprehensive response to Recommendation 1 within 30
days. In response to recommendation 2, program income has been returned to the
SVSBDC.




                                            i
A. Background

        Section 21(a)(1)(a) of the Small Business Act (Act) gives SBA the authority to
provide qualified applicants with grants to help establish small business development
centers. The centers provide a broad-based system of assistance for the small business
community. SBA executes this authority through the SBDC Program. SBDCs link
Federal, state, and local government resources with those of the educational community
and the private sector. SBDCs provide Small businesses with access to counseling
services, management and technical assistance, information, research, and access to
business analysts.

       In California, SBA had awarded a Cooperative Agreement (CA) to the California
Technology, Trade and Commerce Agency (CTTCA) to run a statewide SBDC program.
CTTCA, in turn, subcontracted with West Valley-Mission Community College District
(West Valley) to establish and host an SBDC Center in San Jose. The name of the center
opened by West Valley was Silicon-Valley SBDC. The subcontract, among other things,
required that West Valley monitor and be responsible for program income and
expenditures made as a result of the CA. The subcontract also stated that West Valley
must “keep all books, records, accounts, and documents pertaining to this agreement
separate from other activities unrelated to the agreement.” SBA Standard Operating
Procedure (SOP) 60 16 reiterates West Valley’s obligation to comply with the terms of
the CA.

        The CTTCA/West Valley subcontract also required that West Valley host a
technology advisory program in the San Francisco Bay area. The mission of the program
was to improve business operations by providing technology consulting services to small
businesses. To this end, the SBDC Technology Assistance Program (SBDC-TAP) was
created. The SBDC-TAP Director was “hired” through a contractual agreement with
West Valley.

       In April 2000, the San Jose Entrepreneur Center (E-Center) was opened under the
authorization of SBA Cosponsorship Agreement #00-0912-16. The cosponsorship
agreement documented the relationship established whereby SBA, in conjunction with
other entities, would provide training and counseling programs to assist small businesses.
The major signers of the Cosponsorship Agreement included SBA, the City of San Jose,
the San Jose State University Foundation, the San Jose Service Core of Retired
Executives (SJSCORE) Chapter, and the SVSBDC. The E-Center offered small
businesses and entrepreneurs one facility where they could obtain assistance with their
business needs. The SVSBDC and SJSCORE Chapter were two of the organizations that
operated within the E-Center. The Cosponsorship Agreement identified the San Jose
State University Foundation as the fiscal agent that would provide fiduciary
responsibility for the accounting of all revenues and expenses of the E-Center.




                                            1
B. Objective and Scope
        The audit objective was to determine whether program income was properly
managed by West Valley and the SVSBDC and if selected activities were conducted in
compliance with applicable regulations. We reviewed income generated by training
activities from January 2000 through August 2003. SBA and SVSBDC officials were
interviewed and procurement procedures and activities related to filling of the program
director’s position were reviewed. The audit was conducted in San Francisco and
San Jose, California in accordance with generally accepted Government Auditing
Standards.




                                            2
                                RESULTS OF AUDIT

Finding     Improvements are Needed in the Operation of the Silicon Valley
            Small Business Development Center

        Program income for SVSBDC was inappropriately collected, commingled with
unrelated funds, and disbursed by the SJSCORE office. In addition, the services of the
Director of the SBDC-TAP were not acquired in accordance with guidelines. These
conditions occurred because [FOIA Ex. 6] (i) improperly implemented procedures for
handling funds of the E-Center and its cosponsors which were contrary to the SBDC
Cooperative and Cosponsorship Agreements; and (ii) influenced the sole source selection
of the SBDC-TAP Director in possible violation of ethics and employee standards of
conduct rules. As a result, the SBDC was unable to collect and use $57,645 in program
income and authorized $225,000 for contracted services, which did not comply with the
competitive procurement requirements of the CA.

West Valley Mission Community College District did not control program income

         Contrary to the cooperative and cosponsorship agreements, the SJSCORE
Chapter collected, commingled, and disbursed up to $57,645 of program income from the
SVSBDC training activities that were conducted at the E-Center. This occurred because
[FOIA Ex. 6] issued a “cosponsorship policy memorandum” dated August 5, 2003, that
had the effect of circumventing the requirements of the West Valley/CTTCA cooperative
agreement. The memorandum from the [FOIA Ex. 6] required the SJSCORE Chapter to
receive and manage funds generated by training events held by the SVSBDC. According
to the memorandum:

       •   the SJSCORE Chapter designation as fiscal agent was justified because
           services would be efficient and ensure timely responses to SVSBDC training
           class needs,

       •   the SJSCORE Chapter services would remove any inconveniencies caused by
           the historical problems with West Valley’s management of training revenues,
           and

       •   procedures that generate the best service to the small business program should
           supercede established regulations and guidance.

       [FOIA Ex. 6] responsibilities for the SBDC program are outlined in SOP 60 16.
Specifically, [FOIA Ex. 6] are responsible for (i) monitoring the cooperative agreement
and the operations of the SBDC, and (ii) facilitating SBDC cooperation with SBA
resources, performing SBDC programmatic and budget reviews, and referring clients for
services. The SOP, however, does not permit [FOIA Ex. 6] to establish alternative
procedures which cause SBDCs to be out of compliance with a cooperative agreement.
Furthermore, [FOIA Ex. 6] have no authority to create cosponsorship policy
memorandums that supercede the contractual requirements of SBA cooperative



                                           3
agreements or amend the cosponsorship agreement without following established
procedures found in SOP 90 75 2.

       As a result of the [FOIA Ex. 6] actions, West Valley was unable to meet the
cooperative agreement’s requirement to exercise its fiduciary responsibility.
Specifically, (i) program income generated by training activities was not managed by
West Valley, (ii) income was not separated from other unrelated activities, and (iii)
financial records were not maintained, as required.

        Discussions held with the former Acting Associate Administrator for the Office of
Small Business Development Centers (OSBDC) and the [FOIA Ex. 6] during our review
resulted in a change of policy regarding SVSBDC generated program income. The
OSBDC discussed the issue with the [FOIA Ex. 6]. The [FOIA Ex. 6] then issued a
memorandum to restore management of SVSBDC program income to West Valley.
From that point forward, the SVSBDC should have been collecting training income
generated through SVSBDC training classes and paid at the door. On-line registration
payments were to be forwarded to the SVSBDC when received by the San Jose SCORE
Chapter. The SVSBDC Interim Director was to forward all collections to West Valley
upon receipt. By January 2004, approximately $20,000 in SVSBDC program income
held by the SJSCORE was to be transferred to the SVSBDC for management as required
by the CA. As of March 15, 2004, the Interim SVSBDC Director had been unsuccessful
in accessing SVSBDC funds held by the SJSCORE in the E-Center’s account.

The program director position was improperly filled

        In Fiscal Years 2001, 2002, and 2003, the SBDC Technology Assistance Program
(TAP) Director was “hired” using sole-source selection procedures which were contrary
to the West Valley cooperative agreement. West Valley did not solicit competitive bids
for the position because [FOIA Ex. 6] suggestion for the director position was hired.

        The [FOIA Ex. 6] issued a memo detailing the proposed implementation of a
stand-alone Technical SBDC that would focus on the technological development of small
businesses. The Technical SBDC would be contracted through the existing host
organization-West Valley College. According to the memo, the process for selecting
SBDC Directors in Community Colleges hosting SBDCs was time consuming and
subject to complex hiring policies. To avoid delays, the District “approached West
Valley College about an alternative hiring approach for this position.” The Technical
SBDC Director contract was estimated at $75,000 - $85,000, annually. The [FOIA Ex. 6]
acknowledged “this is typically more than the college can contract without advertising
for bids,” but went on to say “there appears to be the means to make this arrangement
possible.”

        Discussions with the previous SBDC Director, the Interim SBDC Director, key
West Valley and SCORE personnel revealed an atmosphere where the parties were
reluctant to rebuff the [FOIA Ex. 6] requests. West Valley personnel indicated [FOIA
Ex. 6] was hands-on at every level. The interviews also reflected a concern that the


                                            4
[FOIA Ex. 6] had significant influence over whether a college was reinstated as an
SBDC. [FOIA Ex. 6] maintains that his suggestions were just that and it is incumbent
upon program officials to follow their established policies and procedures when agreeing
to implement suggested ideas or policies.

       Employees are required to act impartially and not give preferential treatment to
any private organization or individual per 5 CFR 2635.101(a) (8). Also, 13 CFR 105.206
requires every employee to follow all agency rules, regulations, operating instructions
and other directives in the performance of their official duties. [FOIA Ex. 6] did not
comply with these requirements.

        Exhibit D 3, Purchase Orders & Subcontracting Provisions, of the CA requires
West Valley to obtain three competitive bids on each contracting action greater than
$2,500 or justify why the bids could not be obtained. SOP 60 16, SBDC Program Policy
Guidelines state the SBDC State Director is responsible for program implementation and
limits the degree of involvement from the [FOIA Ex. 6] to oversight, advocacy, and
referral services. [FOIA Ex. 6] acted beyond his scope of authority thereby influencing
the SVSBDC’s hiring process. As a result of the [FOIA Ex. 6] influence, procurement of
services totaling $225,0001 for the TAP Director position did not comply with
competitive contracting requirements and may not have been obtained from the most cost
effective source.

Recommendations

We recommend that the Associate Administrator for Field Operations take the following
actions:

1 A.    Determine what, if any, disciplinary or other administrative actions should be
        taken against [FOIA Ex. 6] for developing a Cosponsorship policy memorandum
        that overrode the SBDC cooperative agreement.

1 B.    Direct [FOIA Ex. 6] to instruct the SJSCORE Chapter to return all SVSBDC
        program income that was generated at the E-Center and is being held in the E-
        Center Special Account to West Valley Community College.

Management Comments

        The Associate Administrator has initiated a thorough review of the issues raised
by the audit and will provide a comprehensive response to Recommendation 1 within 30
days. In response to recommendation 2, program income has been returned to the
SVSBDC.




1
  The TAP director received $75,000 in fiscal year (FY) 2001, $100,000 in FY2002, and $50,000 for the
first 6 months of FY2003.


                                                   5
OIG Evaluation of Office of Field Operations Comments

      The comments were responsive to the recommendations. Final resolution to
recommendation 1 will be accomplished through the audit follow up process.




                                         6
                     Report Distribution




Recipient                                                                                                            No. of Copies
Associate Deputy Administrator
for Management and Administration ...................................................................................1

Associate Administrator
for the Office of Small Business Development Centers ......................................................1

Associate Administrator
for the Office of Business Initiatives ...................................................................................1

General Counsel...................................................................................................................3

Office of Chief Financial Officer
Attention: Jeffrey Brown ....................................................................................................1

General Accounting Office ..................................................................................................1
